APPENDIX

41

Case: 19-1936

Document: 00117719696

Page: 1

Date Filed: 03/19/2021

Entry ID: 6409884

United States Court of Appeals
For the First Circuit
No. 19-1936
UNITED STATES OF AMERICA,
Appellee,
v.
DENNIS AYALA,
Defendant, Appellant.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MAINE
[Hon. George Z. Singal, U.S. District Judge]
Before
Kayatta, Selya, and Barron,
Circuit Judges.
Jane Elizabeth Lee for appellant Dennis Ayala.
Noah Falk, Assistant United States Attorney, with whom Halsey
B. Frank, United States Attorney, was on brief, for appellee.
March 19, 2021

Case: 19-1936

Document: 00117719696

Page: 2

BARRON, Circuit Judge.

Date Filed: 03/19/2021

Entry ID: 6409884

Dennis Ayala challenges his 2019

sentence in the District of Maine for a federal drug conspiracy
offense.

We affirm.
I.
On February 25, 2019, pursuant to a plea agreement, Ayala

pleaded guilty in the District of Maine to one count of conspiracy
to distribute

and to possess with intent to distribute, 40 grams

or more of fentanyl, in violation of 21 U.S.C. §§ 846, 841 (a) (1),
and

841 (b) (1) (B) .

government

Under

had agreed

the

that,

plea
for

agreement,

purposes

of

Ayala

and

the

calculating

the

Guidelines Sentencing Range ("GSR") for this offense, they would
both recommend a Base Offense Level ("BOL") under the Guidelines
of 28, pursuant to U.S.S.G. § 2Dl.l(a)(5) and (c)(6).

That BOL

corresponds to the one that applies when the quantity of fentanyl
attributable to a defendant convicted of an offense such as the
one to which Ayala pleaded guilty is 280 to 400 grams.
§ 2D1.1 (a) (5),

See id.

(c) (6) .

The first day of Ayala’s sentencing proceeding was July
16, 2019.

The District Court indicated at that time that it did

not intend to rely on the BOL in the plea agreement.

Instead, the

District Court explained that it intended to rely on the BOL in
the Presentence Investigation Report

("PSR"), which the United

States Probation Office had prepared in advance of the sentencing
proceeding.

2

Case: 19-1936

Document: 00117719696

Page: 3

Date Filed: 03/19/2021

Entry ID: 6409884

The PSR had attributed a quantity of nearly 900 grams of
fentanyl to Ayala in connection with his offense. i
U.S.S.G.

§ 2Dl.l(a)(5)

and

(c)(5),

Pursuant to

the PSR had thus calculated

Ayala's BOL to be 30 rather than 28 as the plea agreement had
The

specified.
enhancement
levels

PSR had

then

based on U.S.S.G.

pursuant

to

U.S.S.G.

acceptance of responsibility.

added

a

§ 3Bl.l(b)
§ 3El.l(a)

three-level

leadership

and subtracted three
and

(b)

for

Ayala's

The result was that the PSR had

calculated Ayala's Total Offense Level ("TOL") to be 30.

The PSR

had then calculated the GSR, based on that TOL and Ayala's criminal
history, to be 108 to 135 months of imprisonment.
Both Ayala and the government objected to the District
Court's decision to adopt the BOL set forth in the PSR.
by the District Court to explain the objection,

When asked

the government

said that both sides had agreed in the plea agreement to make a
nonbinding recommendation to the District Court that the BOL be
28.

Ayala also argued that the drug quantity that the PSR had

used in calculating the BOL was too large.
The PSR had based the drug quantity on which it relied
in

calculating

Ayala's

BOL

on

certain

cash

that

Ayala

had

1 The PSR had based its more detailed calculation of the drug
quantity on converted heroin drug weights and their marijuana
equivalents of just over 1,100 kilograms.
But, the PSR had also
noted that if only fentanyl had been used to make the calculation,
then the total drug quantity would have been 897.07 grams, which
is an amount that would also have corresponded to a BOL of 30.

3

Case: 19-1936

Document: 00117719696

possessed.

Page: 4

Date Filed: 03/19/2021

Entry ID: 6409884

The PSR had found that the cash had been used in

connection with the conspiracy to which Ayala had pleaded guilty.
Ayala contended, however, that the cash at issue was not in fact
"drug money" and so should not have been used to determine that
the drug quantity involved in his crime was large enough to yield
a BOL of 30.
Ayala

pointed

to

documents

submitted to the District Court.

that

he

had

previously

Those documents,

he argued,

showed that he had used some of the cash in question to repay a
person who had paid his bail for his arrest on a state drug charge.
Ayala also contended that he had received the cash in 2013 from
legitimate sources.
The

District

Court

granted

Ayala

a

continuance

to

support this latter contention with additional documentation.

By

the time the sentencing proceeding recommenced on September 16,
2019, Ayala had produced documents that showed, among other things,
that he had received benefits and life insurance payments of
approximately $250,000 in 2013, following his daughter's death.
The

District

Court

nonetheless

adopted

the

PSR's

calculation of Ayala's GSR, which was based on a BOL of 30 rather
than 28.

That BOL was in turn based on the drug quantity of nearly

900 grams of fentanyl that the District Court had attributed to
Ayala in connection with his' offense.

The District Court then

sentenced Ayala to 108 months in prison.

The length of that prison

4

Case: 19-1936

Document: 00117719696

Page: 5

Date Filed: 03/19/2021

Entry ID: 6409884

sentence was at the very bottom of the GSR of 108 to 135 months
It was also at the very bottom of

that the District Court used.
the GSR that the PSR had used.

If the District Court had calculated

the GSR based on the plea agreement's BOL of 28, then — holding
all other aspects of the calculation constant — the GSR would
have been 87 to 108 months.

See U.S.S.G. § 2Dl.l{a)(5),

(c) (6) .

In that event, the sentence that the District Court imposed would
have been at the very top end of the applicable GSR.
Ayala timely appealed.
II.
Ayala first takes aim at the procedural reasonableness
of his sentence due to the drug quantity that the District Court
attributed to him in connection with his offense.

The District

Court relied on that drug quantity in calculating the GSR to be
108

to

135 months

of imprisonment.

Ayala contends that the

evidence did not suffice to support that drug quantity, because
the

District

Court

based

it

in part

on

his

having been

in

possession of cash that was "drug money" when the record failed to
show that it was.

Ayala also contends that, in any event, the

District Court erred by simply relying on the PSR's use of that
larger

drug

quantity

to

calculate

his

GSR

without

making

Ayala contends that this was so

independent findings of its own.

because he had expressly objected to the PSR's use of that larger
drug quantity in calculating his BOL on the ground that, in doing

5

Case: 19-1936

Document: 00117719696

Page: 6

Date Filed: 03/19/2021

Entry ID: 6409884

so, it was wrongly treating the cash that he had possessed as "drug
money."
We review for clear error a contention that the record
does not support a district court's factfinding regarding drug
See United States v. Bernier, 660 F.3d 543, 545 (1st

quantity.
Cir. 2011).

We review de novo a contention that a district court

erred in failing to make independent findings of its own and by
instead simply adopting the PSR's findings in the
defendant's express objection to them.

face of a

See United States v.

Murchison, 865 F.3d 23, 26 (1st Cir. 2017).

But, here, we may

bypass the substance of each of these contentions, because, as we
will explain, any error that the District Court may have made with
respect to drug quantity in calculating the GSR in Ayala's case
was harmless.

See United States v. Tavares, 705 F.3d 4, 24-28

(1st Cir. 2013) .
In announcing Ayala's sentence, the District Court noted
that Ayala was a long-term drug dealer and that he continued to
traffic drugs after his arrests, even while out on bail.
explained:
[I]n my findings [Ayala] has ... a [TOL of]
30 and a Criminal History Category II which is
108 to 135 months.
If he had [a TOL of]
as [Ayala's counsel] was arguing,
28 . .
and a II, he would have 87 to 108 months.
In my view, the 108 months is appropriate
under either set of circumstances, and that's
what I'm going to sentence him to.
(emphasis
added).

6

It then

Case: 19-1936

Document: 00117719696

Page: 7

Date Filed: 03/19/2021

Entry ID: 6409884

The District Court's statement that the sentence that it
imposed

was

"appropriate

under

either

set

of

circumstances"

clearly demonstrates, when read in the context of "the record as
a whole," Williams v. United States,

503 U.S. 193, 203

(1992),

that the sentence did not depend on whether the BOL was 28 or 30.
That conclusion accords with the fact that the sentence that the
District Court imposed falls within the GSR that corresponds to
either of those BOLs.

And, because the statement by the District

Court makes clear that the sentence that it imposed did not depend
on

its

choice

between

those

two

BOLs,

its

statement

also

necessarily demonstrates that the sentence that it imposed did not
depend on whether the proper drug quantity was the lesser one that
Ayala contends the District Court should have used or the larger
one that it did use.

Accordingly, the record reveals that any

error that the District Court may have made with respect to drug
quantity was harmless, because any such error had no effect on the
sentence imposed.

See Tavares, 705 F.3d at 24-28; see also United

States v. Marchena-Silvestre, 802 F.3d 196, 201-02 (1st Cir. 2015)
(explaining that "not . . . every error in calculating the [GSR]
calls for reversal under plain error analysis,

or even under

harmless error analysis" because "[a] sentencing court might, for
example, make it clear that it was aware of a possible flaw in its
calculation of a

[GSR] ,

and explain

that

its

sentence would

nevertheless be the same under an alternative analysis pressed by

7

Case: 19-1936

Document: 00117719696

Page: 8

Date Filed: 03/19/2021

the party that ultimately appealed," but

Entry ID: 6409884

finding plain error

because ”[n]othing in th[e] record provide[d] any indication clear
enough

to

overbear

the

probative

force

of

th[e]

logical

presumption" that "there [wa]s at least a reasonable likelihood
that

[the sentencing court]

would have landed on a

[shorter]

sentence").2
In contending otherwise, Ayala points first to MolinaMartinez v. United States, 136 S. Ct. 1338 (2016), in which the
United States Supreme Court explained that Guidelines calculation
errors can be prejudicial even when they are not preserved and
even when the imposed sentence would have fallen within the correct
GSR.
in

See 136 S. Ct. at 1345.
that

case

that

there

But, the Supreme Court also noted

might

be

"instances

when,

application of an erroneous Guidelines range, . . .
in a case may show . . .

despite

[t]he record

that the district court thought the

sentence it chose was appropriate irrespective of the Guidelines
2 Ayala contends at one point in his briefing to us that the
District Court "substantively erred" in using the higher BOL from
the PSR, but he does not dispute that such a challenge, even if
styled as one that takes aim at a "substantive" rather than a
"procedural" error, fails insofar as the resultant BOL of 30 played
no role in the District Court's decision to impose the sentence
that he challenges. Nor is there merit to Ayala's challenge to
his sentence insofar as he means to take issue with the length of
the sentence independent of his challenge to the District Court's
reliance on the drug quantity set forth in the PSR and thus to the
BOL of 30. As we have noted, under either the higher BOL of 30 or
the lower one of 28, the sentence was within the applicable GSR,
and we see no basis for concluding on this record that, as such,
the sentence that was imposed was substantively unreasonable.

8

Case: 19-1936

Document: 00117719696

Page: 9

Date Filed: 03/19/2021

Entry ID: 6409884

range" and that in such cases the defendant would not be able to
show that the calculation error was prejudicial.

Id. at 1346.

For the reasons that we have just given, the District Court here
made clear that it "thought the sentence it chose was appropriate
irrespective" of the dispute over the proper GSR,

id • t

and so

Molina-Martinez provides no support for Ayala's position.
Ayala also relies on United States v. Alphas, 785 F.3d
775 (1st Cir. 2015), in which the district court stated that it
was "unlikely" that a different Guidelines calculation would have
resulted in a different sentence, id. at 780.

We concluded that

this statement in context left open "the possibility of a lesser
sentence," such that the error in the Guidelines calculation was
not harmless.

Id.

But, Ayala's reliance on this precedent, too,

is misplaced, because, as we have explained, the District Court's
explanation for the sentence that it imposed does not admit of
such a possibility.
III.
Ayala's remaining ground for challenging his sentence is
that

the

sentencing

sentencing proceeding.

judge

exhibited bias

Because

Ayala

toward

did not

him at

preserve

his
this

challenge below, we review it only for plain error, see United
States v. Caramadre, 807 F.3d 359, 374
find none.

9

(1st Cir. 2015), and we

Case: 19-1936

Document: 00117719696

Page: 10

Date Filed: 03/19/2021

Entry ID: 6409884

Ayala's sentencing proceeding began with three witnesses
speaking on Ayala's behalf.

The first was Ayala's fiancee, who

stated at the start of her testimony at the proceeding that she
was nervous and that she did not know what to say.
judge at that point stated:

The sentencing

"You want to tell me he is a swell

guy."
Ayala contends that this one statement by the sentencing
judge demonstrates bias toward him and thus that his sentence
cannot stand.

But, read in the context of the transcript of the

sentencing proceeding as a whole,

see United States v.

Lanza-

Vcizquez, 799 F.3d 134, 143 (1st Cir. 2015), the statement at most
reflects a perhaps ill-advised attempt by the sentencing judge to
put a witness at ease.

Indeed, at the same sentencing proceeding

and over the government's objection, the District Court granted
Ayala's request for a continuance of several weeks so that he would
have an additional opportunity to rebut the challenged findings
regarding drug quantity.

Thus, Ayala has failed to show judicial

bias, see Liteky v. United States, 510 U.S. 540, 555-56 (1994),
let alone met his burden to show a "clear or obvious" instance of
it, as is required by the plain error standard, United States v.
Duarte, 246 F.3d 56, 60 (1st Cir. 2001).
IV.
For these reasons, we affirm.

10

